<html>
<title> - ESTABLISHING A COMMISSION TO STUDY THE POTENTIAL CREATION OF A NATIONAL WOMEN'S HISTORY MUSEUM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
ESTABLISHING A COMMISSION TO STUDY THE POTENTIAL CREATION OF A NATIONAL 
                         WOMEN'S HISTORY MUSEUM

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

               Held in Washington, DC, December 11, 2013

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov


                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania, Ranking Minority Membersissippi
ZOE LOFGREN, California              PHIL GINGREY, M.D., Georgia
JUAN VARGAS, California              AARON SCHOCK, Illinois
                                     TODD ROKITA, Indiana
                                     RICHARD B. NUGENT, Florida

                           Professional Staff

   Kelly Craven, Staff Director
  Kyle Anderson, Minority Staff 
             Director


ESTABLISHING A COMMISSION TO STUDY THE POTENTIAL CREATION OF A NATIONAL 
                         WOMEN'S HISTORY MUSEUM

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:39 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper and Lofgren.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Salley Wood, Communications Director and Deputy Staff 
Director; Bob Sensenbrenner, Senior Counsel; Mary Sue Englund, 
Director of Administration; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Matt 
Defreitas, Minority Professional Staff; Khalil Abboud, Minority 
Deputy Counsel; Thomas Hicks, Minority Senior Counsel; Mike 
Harrison, Minority Chief Counsel; Greg Abbott, Minority 
Professional Staff; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. Good morning, everyone. I call to order the 
Committee on House Administration for today's hearing on 
establishing a commission to study the potential creation of a 
National Women's History Museum. And first of all, the hearing 
record will remain open for 5 legislative days so that Members 
might be able to submit any materials that they wish to be 
included as well.
    And we do have a quorum present, so we may proceed.
    First of all, I want to thank our witnesses for taking the 
time to testify before the committee today. We have one witness 
here, and our other witness is on her way, hopefully coming 
down the hallway here. And we will proceed as we can here this 
morning, but we certainly want to thank them for their 
continued dedication and persistence in this very important 
and, I think, frankly, long overdue acknowledgement of women's 
contributions throughout the history of our great Nation.
    Both of my distinguished colleagues, Mrs. Blackburn, who 
again I say will be here shortly, and Mrs. Maloney as well, 
have joined many of our colleagues from both Chambers in the 
House and in the Senate in leading this initiative to create a 
museum here in the Nation's Capital to recognize the 
accomplishments of great American women. And each day certainly 
as we walk through the halls of Congress, we see some of the 
different sculptures that are in the halls of American pioneers 
like Susan B. Anthony or Rosa Parks, Helen Keller. We certainly 
are reminded of the great contributions that women have played 
in our very rich history, often despite of, quite frankly, or 
because of the great adversity that they have overcome.
    Jeannette Rankin, whose statue adorns Emancipation Hall in 
the Capitol Visitors Center, was not only the first woman 
elected to the House of Representatives, she was a Republican 
from Montana, but she was actually elected in 1916, which was 4 
years before women were even guaranteed the right to vote in 
our Constitution, which I think is a remarkable thing to note.
    And women's contributions are certainly not just social or 
political, but more and more each day, they are economic as 
well. And with over 65 million women in the workforce today, 
women are quickly transforming corporate America.
    The contribution of women in our Nation's history is huge, 
really, very immense. They have aided and served alongside our 
patriots during the Revolutionary War; women like Clara Barton, 
who aided and nursed our soldiers in the field in the Civil 
War; in my home State of Michigan, certainly Rosie the Riveter. 
My grandmother was one of the Rosies helping to build our arms, 
all of our armaments. We were the arsenal of democracy, which 
built the armaments that literally led the entire world to 
peace, quite frankly, helped our troops achieve victory.
    And today they work in every facet of our economy, up to 
and including CEO's of Fortune 500 companies. And again, as a 
point of personal privilege, I have to mention, coming from 
Michigan, that just this week Mary Barra was announced as the 
new CEO of General Motors, which is the first time a woman has 
ever headed one of our domestic auto companies, ever. That is 
really breaking the glass ceiling, so to speak; a good car gal.
    But women have stepped to the forefront of innovation, 
business, politics, you name it, whether within their own 
communities, their State, or certainly across the entire 
Nation, and their stories are important to share, as their 
accomplishments make up the very fabric of our Nation. It is 
our responsibility to keep this history alive for today's 
generation and certainly for generations who will come after us 
all, and that is why we are here today, to examine the 
establishment of a National Women's History Museum.
    Since the 105th Congress, various bills have been 
introduced to advance the creation of a women's museum. One 
bill even passed the House, two in the Senate. Our first 
witness--witnesses today, both Mrs. Maloney and Mrs. Blackburn, 
authored and cosponsored H.R. 863 this Congress, which would 
establish the commission to study the creation of a museum.
    So we are also going to hear today on our second panel from 
Ms. Joan Wages, who is the president and CEO of the nonprofit 
National Women's History Museum, which has been pursuing a 
national museum since 1996.
    I certainly join our witnesses in their enthusiasm for this 
initiative and welcome others, but I also realize, I think we 
all do, as they very well know, that there are compelling 
concerns and certain obstacles that require us to approach the 
establishment of this museum with very careful thought and 
consideration, similar to that which every American woman puts 
into action every day.
    Museums are very expensive propositions, and certainly 
given our current restrictions in our fiscal environment, 
Federal funds will be extremely scarce, and the fully private 
funding model championed by the National Women's History 
Museum, I think, is an excellent approach given the budget 
constraints that we live with.
    Then there is the matter of governance. Recent museum 
commissions have recommended that new facilities be part of the 
Smithsonian, and this is a decision that cannot be taken 
lightly as it has major repercussions for the museum structure, 
for collections management and financial support as well, 
especially when we prefer to see this built and maintained, 
again, as we say, with private funds.
    Over the last decade, the Smithsonian has added two major 
facilities to its collection, and a third one, the National 
Museum of African American History and Culture, should open in 
late 2015, bringing the total number of Smithsonian museums to 
19. There is also pending legislation to create a National 
Museum of the American Latino, which I am very hopeful this 
committee will have a hearing on next year, as I believe that 
it, too, is very worthy, a worthy initiative that deserves our 
attention. And, of course, there is only so much space 
available on the National Mall, and concerns have been raised 
about the museum's location.
    These issues warrant thorough review and reflection. 
Establishing a commission may be a step in the right direction 
to really fully flesh out how such a museum would integrate 
with our existing national, regional and local cultural 
institutions, what it will cost, how can we fund it, and where 
would we put it.
    Notwithstanding these issues, the concept of a National 
Women's History Museum to serve as a repository for the 
profound social, intellectual and cultural contributions of 
fully half of our society is certainly deserving of our 
attention.
    Demographics also demonstrate a significant potential level 
of public interest. Women represent more than half of our 
population today, as we say, and currently outnumber men 
actually in college enrollment. These are really recent 
developments, significant developments, of which I am sure that 
our foremothers would be very proud, and I am certain that 
every American man and woman would find value in investigating 
this history that has allowed us to get to this point. So, 
again, we will look forward to hearing from our witnesses. We 
appreciate their attendance here today.
    And at this time I would like to recognize my colleague 
Congresswoman Lofgren for the purpose of providing an opening 
statement.
    Ms. Lofgren. Thank you very much, Chairman Miller. And I am 
also pleased to welcome the witnesses today to this hearing 
about the establishment of a National Women's History Museum 
right here in Washington. Now, Chairman Miller and I are of 
different parties, and we don't agree on every issue, but I 
think we do share a deep commitment to ensuring that the 
contributions of women here in America are recognized.
    As has been mentioned, the Committee on House 
Administration has jurisdiction over museums or potential 
museums if they are or might become part of the Smithsonian, 
and, of course, in recent times we have authorized within the 
Smithsonian the National Museum of the American Indian and the 
National Museum of African American History and Culture now 
under construction. As the chair has mentioned, we also have 
received a report authorized by Congress and completed in 2011 
from the Commission to study the potential creation of a 
National Museum of the American Latino, and I am so pleased to 
hear from the chairwoman that we will perhaps have a hearing on 
that early next year. I look forward to that.
    Now, this bill has significant bipartisan support. 
Congresswoman Maloney has been tireless in pursuing this over 
many, many years, and I am hopeful that we can move forward on 
this. We have issues, of course: where the museum would be 
located, how it would we paid for, exhibits, structure and the 
like; but to me the question is not whether, but how. And I 
think that that is a great advance.
    I mentioned to Congresswoman Maloney one of the things I am 
interested in pursuing is something called a Treasury-Postal, 
which is a great way to raise funds, because it is completely 
within discretion of postal patrons whether or not they would 
like to buy a stamp that has a small surcharge that would go to 
a wonderful cause such as this. If you don't want to pay that 
surcharge, then you don't buy the stamp; but if you would like, 
it is a way to raise a lot of money with small contributions 
across the United States. So I am hopeful that we might be able 
to incorporate something like that funding stream into this 
down the line.
    I look forward to hearing from our witnesses. And, Madam 
Chairwoman, I am so pleased to be here with you today and to 
participate in this important hearing. And I yield back.
    The Chairman. Thank the gentlelady for her comments.
    Does any other Member wish to be recognized for purposes of 
an opening statement?
    If not, first of all, we were going to start with 
Representative Blackburn, but I know she is literally running 
across from the other building, because we were just watching 
her on the monitor finishing up her questions at another 
hearing, so she is on her way.
    Mrs. Maloney. I hate to start without her, because this is 
truly a bipartisan effort.
    The Chairman. Yeah. That is right.
    Mrs. Maloney. Exactly where is she? Maybe she can get here 
in time.
    The Chairman. She is coming. She is coming, but I am going 
to start by introducing you, Carolyn, and we will let you begin 
as well.
    First elected to Congress in 1992, Carolyn Maloney is 
recognized as a national leader with extensive accomplishments 
on financial services, national security, the economy, and 
women's issues. Representative Maloney is the first woman to 
represent New York's 12th Congressional District and was the 
first woman to chair the Joint Economic Committee. As a former 
cochair of the Women's Caucus, Representative Maloney is 
nationally recognized as an advocate for women and families 
issues with special emphasis on funding for women's health 
needs. And she is a member of the U.S. delegations to the 
fourth World Conference on Women in Beijing, she attended 
there, and also to the International Conference on Population 
and Development.
    And I will hold my intro of Marsha until she comes, but at 
this time the chair would like to recognize Representative 
Carolyn Maloney for her testimony.

 STATEMENT OF THE HON. CAROLYN B. MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. First of all, thank you so much, Chairlady 
Miller and Ranking Member Brady, represented so ably by my good 
friend Zoe Lofgren, for the honor of testifying before Congress 
on what I truly believe is a historic and incredibly important 
goal, a commission to study the creation of a National Women's 
History Museum. I truly believe that the best legislation is 
always bipartisan, and I am thrilled to be working with my good 
friend, colleague and partner in this, Marsha Blackburn. I 
thank her for working so hard on the legislation, getting 
cosponsors and arranging this hearing. I am deeply grateful to 
the Republican leadership for moving forward with reviewing 
this and holding this hearing.
    And I am also honored to be here with my good friend Joan 
Wages. She has been a partner in this effort since 1994. She is 
the president of the National Women's History Museum, a 
nonprofit that has already begun raising money for this 
project, compiling and sharing information, and created a Web 
site for women's history.
    For many of us here today, this isn't a hearing, it is a 
chance to take a historic step forward. In researching for this 
museum, I could not find any museum in America dedicated to the 
achievements of half of our population. I not only could not 
find one in America, I can't find one in the entire world. 
There are specific museums for First Ladies, for artists and 
other areas, but not to the achievements of women.
    This is, to me, a very personal and important goal, and it 
came really from my two daughters, who used to say to me at 
night, ``Mommy, why aren't any books written about girls?'' All 
the books that I read them at night, they were always written 
about boys and boys' achievements. And so we have a historic 
opportunity to rectify this, and we are testifying today on the 
importance of this legislation before this important committee, 
H.R. 863, which would establish a congressional commission to 
report recommendations to the President and Congress concerning 
a National Women's History Museum in Washington, DC, on or near 
the Mall.
    The commission for the museum would be privately funded, 
totally funded by taxpayers' money. Women are used to doing 
everything on our own, and we will build this museum on our own 
with like-minded men. This is a not-for-profit national history 
museum, and they are already raising money for this.
    We have 44 cosponsors, bipartisan cosponsors, and Senators 
Susan Collins and Barbara Mikulski have introduced a companion 
bill in the Senate. I ask for total permission to place in the 
record the 44 cosponsors, the legislation and the 
organizations, well over 40 organizations, that have come out 
and endorsed this important legislation.
    The Chairman. Without objection, that will be entered into 
the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6692A.023
    
    [GRAPHIC] [TIFF OMITTED] T6692A.024
    
    [GRAPHIC] [TIFF OMITTED] T6692A.025
    
    [GRAPHIC] [TIFF OMITTED] T6692A.026
    
    [GRAPHIC] [TIFF OMITTED] T6692A.027
    
    [GRAPHIC] [TIFF OMITTED] T6692A.028
    
    [GRAPHIC] [TIFF OMITTED] T6692A.029
    
    [GRAPHIC] [TIFF OMITTED] T6692A.030
    
    [GRAPHIC] [TIFF OMITTED] T6692A.031
    
    [GRAPHIC] [TIFF OMITTED] T6692A.032
    
    [GRAPHIC] [TIFF OMITTED] T6692A.033
    
    [GRAPHIC] [TIFF OMITTED] T6692A.034
    
    [GRAPHIC] [TIFF OMITTED] T6692A.035
    
    Mrs. Maloney. Women's historical contributions are largely 
missing from textbooks, memorials, museum exhibits and many 
other venues. In contrast, thousands of years of history have 
focused upon the achievement of men. Of the 210 statues in the 
United States Capitol, only 13 are of female leaders. Fewer 
than 5 percent of the 2,400 national historic landmarks 
chronicle women's achievements, and a recent survey of 18 
history textbooks found that only 10 percent of the individuals 
identified in the textbooks were women.
    The National Women's History Museum would change that by 
telling the fascinating, yet mostly untold stories of important 
women in American history and their contributions, like Agent 
355, the mysterious woman who sent vital information to General 
Washington during the Revolutionary War; or Hedy Lamarr, the 
Hollywood star who invented a radio-guided torpedo that 
contained the technology that gave rise to cell phones, Wi-Fi, 
and GPS; and many, many other important women.
    Here in our Nation's Capital, museums have traditionally 
been a way for our country to proclaim our history, to 
demonstrate and honor what we value, to educate our children, 
and to shape our culture. A short walk from where we sit, there 
are museums dedicated to the Nation's founding, to science, to 
the arts, to flight, to postage stamps, law enforcement and 
news, and many other important areas of special interest, yet 
none is dedicated to half the population. Every scientist, 
every creator of a postage stamp had a mother, and they did 
many, many important contributions to our country. Where are 
their stories told?
    But women and their achievements are almost nowhere to be 
found among these buildings that are supposed to hold the 
stories of our Nation's journey. This bill seeks to change 
that. When it opens, the museum will help ensure that future 
generations will understand the many contributions of women.
    It was only recently that in a bipartisan effort with 
Connie Morella we were able to move the great statue of the 
great women revolutionary leaders that led to women having the 
right to vote. Incidentally, they were all Republicans. Susan 
B. Anthony, Lucretia Mott and Elizabeth Cady Stanton were 
active Republican leaders in the abolitionist movement, as was 
Alice Paul, who continued this fight in enacting the 21st 
Amendment that gave the historic right, an incredible 
achievement, that half our population had the right to vote. 
She, incidentally, was also a Republican, and her uncle was a 
Republican legislator from Pennsylvania.
    But this story, I think, tells the problem of how hard it 
is. Connie Morella and I worked on this moving the statue for 5 
years. Can you believe it? Five years to move a statue, to move 
our revolutionary leaders out of the basement and into the 
living room of the Capitol with our other great revolutionary 
leaders, Lincoln and Jefferson and Jackson and Martin Luther 
King, but it was so difficult that we started a newsletter 
called ``All the Excuses Fit to Print.'' One of them said that 
the Capitol Rotunda could not hold the statue. They forgot that 
it had sat there for 3 days before it was sent to the basement. 
So we had to go out and raise $85,000 to fund an engineer's 
report to determine whether the floor would hold it.
    There were so many excuses. They said, we are not having 
any new statues in the Capitol; meanwhile, they moved in 
disgraced people, and many, many statues came in. And then 
finally they said that we had to pay to move it, and it was 
hundreds of thousands of dollars. We had to move the statue 
from the basement into the Rotunda to honor the three 
revolutionary, great leaders that gave half our population the 
right to vote.
    I tell this story because it shows you how hard it is to 
get anything done relating to women. And I want to publicly 
thank my colleague Marsha Blackburn for getting this hearing, 
for getting the cosponsors, for helping to author the 
legislation, and all of her effort that has brought us to where 
we are today.
    And this statue shows the importance of these women, but 
there are many other women that have contributed to the success 
of our great country, and their stories need to be told to 
inspire our daughters and our sons. And I respectfully suggest 
that Congress can now at this moment play an important and 
historic role in seeing to it that half of the population of 
these United States is actually represented when the history of 
our great Nation is told, from pioneering women like 
abolitionist Harriet Tubman to astronaut Sally Ride; from 
Supreme Court Justice Sandra Day O'Connor to the new leader for 
General Motors. This is a real historic step forward.
    These remarkable women helped make this country what it is 
today. They deserve a place for their stories to be told and 
preserved to inspire future generations. But we aren't doing 
this just to recognize those women who came before us; we are 
also doing it so that our daughters and our sons and their 
children have the chance to learn the story, the full story, of 
how this amazing country came to be.
    I want to thank you for the honor and opportunity of 
testifying before you today, and I hope that this committee 
will see fit to move this bill forward. And I look forward to 
working with all of you on this very, very, I believe, 
historic, and important, and, again, not only an American 
first, but a national and international first of dedicating, 
hopefully, after the commission's report, a museum that is 
dedicated to the achievements of half this great country.
    I yield back the balance of my time. Thank you.
    The Chairman. I thank the gentlewoman very much for her 
testimony. Excellent, excellent testimony.
    [The statement of Mrs. Maloney follows:]

    [GRAPHIC] [TIFF OMITTED] T6692A.001
    
    [GRAPHIC] [TIFF OMITTED] T6692A.002
    
    [GRAPHIC] [TIFF OMITTED] T6692A.003
    
    [GRAPHIC] [TIFF OMITTED] T6692A.004
    
    The Chairman. And as we all know, women are multitaskers, 
and Representative Blackburn certainly has been doing that 
already this morning. We appreciate her attendance here today 
and all her work in getting this hearing put together.
    As a formal intro, she represents the Seventh District of 
Tennessee. She was first elected to represent the Seventh 
Congressional District in Tennessee in 2002, quickly becoming a 
leader in Congress and a leading voice advocating for small, 
efficient Federal Government that is accountable to its 
citizens.
    As a small businesswoman, an author, a mother, a 
grandmother, and a Member of Congress, Marsha Blackburn has 
dedicated her service to the sacred obligations all citizens 
have to their communities, and that is making Tennessee and 
certainly America a better and more prosperous place where all 
of our children can achieve the American dream.
    In April of 2013 at the Women Run the World half marathon 
in New York City, More Magazine recognized Representative 
Blackburn for her service in government by honoring her as 1 of 
10 women who are making a difference in the world.
    She is a founding member of the Republicans Women's Policy 
Committee and is also a member the Smithsonian Library's 
Advisory Board. So we welcome her attendance here today, and at 
this time the chair would recognize Representative Blackburn 
for her testimony.

  STATEMENT OF THE HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Chairman Miller. And I apologize 
to you, to the committee, to the staff and everyone in the 
room. We were a bit delayed, and I could not leave until I had 
finished my obligation at our hearing. So I do apologize.
    I do appreciate also the effort that has gone into making 
the hearing possible today. We thank you for this. And thank 
you for the attention to how we go about with the creation of a 
privately funded museum to honor the Nation's influential 
women. And it is my hope that today we will have a well-
informed discussion about how we move forward.
    I have been pleased to work with Mrs. Maloney on H.R. 863, 
which would create a commission to study the feasibility of 
building a women's history museum. As Mrs. Maloney said, she 
and Senator Collins have worked for many Congresses to secure 
this effort, and while it would pass in the House or pass in 
the Senate, we have never been able to line these up and make 
it happen in the same Congress with each Chamber.
    The fact that we are here discussing it today is symbolic, 
because it is an important time for women in our Nation. Now 
more than ever, women are starting and running their own 
companies; they are moving into positions of leadership not 
only in our Nation, but around the globe; and they are seeking 
to look at history and the past and role models that have paved 
the way. Of course, our Bureau of Labor Statistics reports that 
women now hold 51 percent of all management, professional and 
related occupations. That number continues to rise, and many 
women say, how did we get here? On whose shoulders do we stand?
    But let us not forget about the women that have persevered 
and have changed the course of history. Mrs. Maloney mentioned 
a few. I think we can look at what happened with visionaries 
like Deborah Sampson, who disguised herself as a man so that 
she could fight alongside men in the Revolutionary War. We have 
mentioned Susan B. Anthony, who fought for women's right to 
vote; Clara Barton, who founded the Red Cross. Or let us not 
forget Jeannette Rankin, the first woman ever elected to 
Congress in 1916.
    There are countless other women who sacrificed so much to 
fight for what they believed in spite of very challenging 
circumstances. Today their legacies live on as women continue 
to break many historical barriers in our country. In the 113th 
Congress, we have a record high number of 98 women Members in 
both the House and the Senate.
    All women have their own personal history that they bring 
to the table. My colleague Mrs. Maloney was the first woman 
ever elected in her district in New York and has continued to 
be a trailblazer on so many issues that are very important to 
her constituency.
    While she and I may disagree on some political issues, that 
is not the case here today. Today we come to lift up women and 
to help to preserve and share the legacies of women who paved 
the way before us and have helped to shape the freedom that we 
in this Nation hold so dear. And in doing so, these stories 
will inspire future generations by illustration of how that 
bravery, that patriotism and that perseverance did indeed make 
a difference. We would not have the freedom and the 
opportunities that we have today without the sacrifices of 
those who have gone before us.
    This proposed women's history museum would be financed 
privately and not a dime of taxpayer money. The women's museum 
project has already had generous support from private donors, 
and they are willing to move forward to make it happen. The 
hearing is a good step. It lays out how this bill would have a 
commission of eight members chosen equally by the leadership in 
both parties of the House and the Senate who have demonstrated 
their commitment to study and teaching of women's history. They 
will examine possible locations, devise fundraising strategies, 
and analyze overall logistics of building the museum, and 
assess the feasibility of the total project.
    As we discuss the bill and the steps forward, I look 
forward to hearing your ideas and suggestions and working to 
make this a reality.
    Again, I apologize for my tardiness, I thank you all for 
the courtesy of the hearing, and I yield back the balance of my 
time.
    The Chairman. Thank you very much.
    [The statement of Mrs. Blackburn follows:]

    [GRAPHIC] [TIFF OMITTED] T6692A.005
    
    [GRAPHIC] [TIFF OMITTED] T6692A.006
    
    The Chairman. And I want to thank both our witnesses in the 
first panel for appearing here before the committee today, and 
I certainly again want to thank both of you for pushing, 
pushing us all along here. And certainly having this hearing 
today, I think, is a tremendous first step, and in our next 
panel we will be really outlining some more specifics about how 
we might proceed with this.
    But I tell you in this age of sometimes people think we 
can't work together, we know as women that we can work together 
certainly, and I think this is a great example of a bipartisan 
effort to move forward, and I just appreciate that very much.
    Any other Members have question or comment?
    Mr. Harper. Being the father of a now 22-year-old daughter, 
I certainly know how important it is to have great role models. 
And my daughter, when she was 17, had the privilege of sitting 
down with Marsha Blackburn and being inspired by her, following 
her in her footsteps to Mississippi State University, where she 
graduated in 3 years. And so I thank you, Congresswoman 
Blackburn, for your input and influence with my daughter. Thank 
you.
    The Chairman. Yes.
    Ms. Lofgren. I would just--it is the committee practice not 
to ask questions of Members who testify. I know that we will 
adhere to that, but I just want to thank both Representatives 
for their leadership on this issue. I am so enthused that we 
can move forward on this with your strong support, so thank you 
for your work.
    The Chairman. Thank you both very much. Merry Christmas.
    Mrs. Maloney. Merry Christmas.
    The Chairman. We appreciate you coming.
    Mrs. Maloney. Thank you.
    The Chairman. At this time, we will excuse our first panel, 
and we will ask that our second panelist be seated.
    Before I introduce our panelist, I would ask unanimous 
consent for the committee to enter into the record two items: 
first of all, a statement from the American Association of 
University Women establishing a commission to study the 
potential creation of a National Women's History Museum. And 
without objection, that will be entered into the record as 
well.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6692A.007
    
    [GRAPHIC] [TIFF OMITTED] T6692A.008
    
    The Chairman. At this time I would like to introduce our 
second panelist, our next witness. Joan Bradley Wages is the 
president and CEO of the National Women's History Museum. She 
has been working to make this museum a reality for at least 15 
years, if not longer. She began as one of the founding board 
members that ultimately led to her serving as the champion for 
this museum. And throughout her career, she has focused on 
women's issues on Capitol Hill, which culminated when she 
served as the founding board member of the National Women's 
History Museum. And while we cannot assume a potential 
commission would tap the nonprofit National Women's History 
Museum as the appropriate entity to become the national museum, 
Ms. Wages has been at the forefront certainly of promoting this 
issue, developing a concept for such a museum, seeking support, 
and tackling organizational and fundraising issues, and 
certainly those experiences can certainly help inform our 
deliberations today. So we certainly appreciate your attendance 
here today, and your passion and commitment and dedication to 
this issue.
    And at this time the chair would recognize Ms. Wages for 
her testimony.

 STATEMENT OF JOAN BRADLEY WAGES, PRESIDENT AND CEO, NATIONAL 
                     WOMEN'S HISTORY MUSEUM

    Ms. Wages. Thank you so much. Thank you, Madam Chair. Thank 
you, Representatives Lofgren and Harper. We so appreciate this 
opportunity to make a presentation to your committee and to----
    The Chairman. Is your microphone on? Excuse me. I just--
thank you.
    Ms. Wages. There we go. Okay.
    Madam Chair, Representatives Lofgren and Harper, thank you 
so much for scheduling this hearing and for allowing the 
National Women's History Museum an opportunity to appear in 
support of establishing a commission to investigate the 
feasibility and need for a museum to honor contributions of 
women to our Nation. We are so appreciative to Representatives 
Blackburn and Maloney for their tireless efforts to move this 
forward.
    My name is Joan Wages, and I am president and CEO at the 
National Women's History Museum. I ask that my entire statement 
be entered into the record, and I will give you a summary.
    The Chairman. Without objection.
    Ms. Wages. As mentioned, legislation is pending in the 
House and Senate that would create a congressional commission 
to study the potential creation of a federally authorized 
museum to recognize and honor women.
    History is empowering. It shapes who we are and provides 
role models to guide us, yet women stand on historical 
quicksand. With each step forward, the one behind disappears. 
By all evidence, at least half of our population has lived a 
life only to become in large part invisible.
    The mission of the National Women's History Museum is to 
bring women's history into our mainstream culture so that the 
general public is aware of such historic figures as Sybil 
Luddington, who, like Paul Revere, rode all night on horseback 
during the Revolutionary War to alert the militia that the 
British were coming.
    Women's history also includes recognition of the collective 
efforts of women to enrich society. It was women who lobbied 
for the pasteurization of milk, vaccinations for our children, 
and sewage systems for our communities. Women have succeeded in 
shaping our Nation in important and in lasting ways. Women have 
woven the very fabric of this Nation, whether through the 
essential role of motherhood or in the fields of education, 
health care, business, technology, entertainment. No matter 
what the field of endeavor, women have been there.
    I have personally dedicated my work on establishing this 
museum to the memory of my mother, whose love and caring is 
with me today. Abraham Lincoln said it best: Everything I am or 
ever hope to be, I owe to my mother. It is far beyond time for 
the women of our Nation to be recognized.
    By way of background, the National Women's History Museum, 
as it exists today, was incorporated in Washington, DC, in 1996 
as a 501(c)(3) nonprofit educational organization, and its 
first project was to lobby Congress and raise the funds to 
relocate the Portrait Monument of Elizabeth Cady Stanton, Susan 
B. Anthony and Lucretia Mott. We succeeded, and the statue was 
moved from the crypt into the Rotunda of the U.S. Capitol on 
Mother's Day of 1997, where it still stands today. Now millions 
of visitors to the Capitol have an opportunity to see our 
foremothers standing alongside our Nation's forefathers.
    Since its inception the National Women's History Museum has 
raised over $12 million. We have developed an extensive Web 
site with 24 online exhibits and over 300 biographies on women. 
We have placed $1 million in reserve to potentially underwrite 
the commission, or as a deposit toward the design and 
development of the museum so that no taxpayers' dollars will be 
used for this endeavor. We have celebrity ambassadors and 
supporters like Alfre Woodard, Meryl Streep, Kate Walsh and 
Geena Davis; women's history scholars; and more than 50,000 
charter members. We have partnered with the George Washington 
University on a lecture series. We have produced a public 
service announcement that was directed by acclaimed filmmaker 
Catherine Hardewick. And we have widespread bipartisan support.
    The National Women's History Museum now embraces the 
project of advancing a permanent museum in our Nation's Capital 
recognizing and honoring half of our Nation's history, women's 
history.
    In conclusion, I give you one astonishing fact. There is no 
world-class women's history museum in any nation's capital in 
the world. A museum established by this commission would be the 
first in any nation to show the full scope of the history of 
its women, thereby serving as a beacon to people everywhere. It 
is vital that America, a Nation that has done so much to 
advance equality, houses the National Women's History Museum to 
celebrate the deep and lasting impact women have made.
    Thank you again for this opportunity to testify. I would be 
happy to answer any questions.
    The Chairman. Thank you very much. We certainly appreciate 
your opening remarks there.
    [The statement of Ms. Wages follows:]

    [GRAPHIC] [TIFF OMITTED] T6692A.009
    
    [GRAPHIC] [TIFF OMITTED] T6692A.010
    
    [GRAPHIC] [TIFF OMITTED] T6692A.011
    
    [GRAPHIC] [TIFF OMITTED] T6692A.012
    
    [GRAPHIC] [TIFF OMITTED] T6692A.013
    
    [GRAPHIC] [TIFF OMITTED] T6692A.014
    
    [GRAPHIC] [TIFF OMITTED] T6692A.015
    
    The Chairman. As has been mentioned, and certainly with our 
first panel as well and my opening statement, Ms. Lofgren as 
well, I think we all have concerns about the budget constraints 
and the money, where is the money coming from. And, you know, 
in this town everything--every conversation really ratchets off 
that. So I think certainly it is certainly refreshing to hear 
that the women's history museum could be solely funded by 
private contributions.
    I guess I would like to just explore that a bit more with 
you, because that is probably the biggest stumbling block, I 
think, that we--well, we have got a couple, but certainly that, 
a marquis issue as we go forward. So could you talk a little 
bit about how confident you are in assessment for not only the 
construction of it, but the maintenance of it?
    And then as we look at legislation, certainly one of the 
things is you don't want something to go off infinitum; you 
would like to have a start and a conclusion, a timeframe, et 
cetera, for it, or even thinking about the possibility of 
putting a sunset provision in there or some sort of constraints 
to make sure that there is a matrix, an accountability matrix, 
to make sure the project is moving along. What are some of your 
thoughts on that?
    Ms. Wages. We have studied, talked to, worked with various 
consultants and experts in the field of building museums, so we 
would hope to be able to build a museum between 400- and $500 
million. I think that that is kind of the going price. And that 
would include the exhibits, the interior, as well as the 
construction of the museum. It appears that annual operating 
will be around 15- to $20 million a year.
    Again, we have talked to many experts. We believe that 
representing over half of the Nation's population and then the 
other half who love their mother are going to come in and 
contribute to the building of this museum.
    So we believe that the resources are there. We have worked 
to put together--we have a fundraising plan that if you pass 
this bill today, we could start working tomorrow. We would 
celebrate tonight, but we would start working tomorrow.
    The Chairman. First celebrate, then work, right?
    Ms. Wages. Celebrate then work, yes.
    The Chairman. That is right.
    Ms. Wages. And so we feel quite confident that--we have 
raised more money to this point than any other museum has at 
this stage in their development. And we get--again, we have 
50,000 charter members. We get thousands of letters from women 
saying, I worked my entire career, and I didn't get the respect 
or I didn't get the opportunity that I could have and should 
have had. And so those women are now towards the point of 
retirement and looking at where they want to leave bequests and 
those types of things.
    So there is a tremendous opportunity here, and we believe 
that we can make this happen.
    The Chairman. You know, the other issue as well, as we 
said, the money certainly, but then the location. And obviously 
the Mall, everybody wants to be on the Mall, and that has 
always been--we have obviously a very limited amount of space 
there. And I know you have had some experience on your journey 
here all of these years of looking at other sites rather than 
the Mall, but maybe in the Capital City here, maybe even in 
some other location that has some significant event, a women's 
event or something. Maybe you could speak a little bit to what 
your thoughts are of the location of such a museum.
    Ms. Wages. We have looked at more than 40 locations, 
private and government owned, and it comes down to where will 
the most people visit the museum; where would we locate the 
museum in order to have the greatest impact. I mean, after 
working on it for this long, we certainly want to make sure 
that it is a success, and that millions of people are coming to 
this museum, so that narrows it down pretty quickly to 
something that is on or very, very close to the National Mall.
    And as you said, there is limited space on the Mall, but we 
even have a historical justification for why we should be 
there--the African American Museum is now under construction, 
African American men were the next to the last to be granted 
the vote, and women were the last to be granted the vote, and 
so that last spot is just being saved for us.
    The Chairman. Very good.
    Ms. Wages. Yeah. Thank you.
    The Chairman. Very good answer.
    With that, the chair recognizes the gentlelady from 
California for her questions.
    Ms. Lofgren. Thank you, Madam Chair.
    And before asking anything, let me just express my thanks 
to you for your years of work for this on behalf of the people 
of our wonderful country; not only this, but your efforts in 
the portrait monument. You know, it is all very meaningful, and 
we are grateful to you.
    You know, thinking about location, I do agree that a spot 
on or near the Mall would be ideal. What I am wondering is we 
have got a moving target in some ways. I mean, for example, the 
FBI is going to be vacating its spot. We had a hearing--I was 
unable to go because of a conflict with the Judiciary 
Committee--and I don't think we are ready to move yet on the 
printing office, but certainly the requirement for space is 
very different in the digital world than it has been in the 
past. So I am just suggesting that there are some publicly 
owned facilities that we need to think about as we think about 
what to do with our museum needs. Obviously we are going to 
have to need a space for the American Latino project as well, 
and we certainly want to do everything.
    So have you looked at those outlying efforts for facilities 
that could become available?
    Ms. Wages. We have. We keep our fingers on the pulse 
through our advisors and consultants, and so we are aware of 
the FBI building coming down. Also a little bit further out is 
the 10th Street corridor, that may be renovated. And so we are 
not opposed to talking about any of these locations.
    Ms. Lofgren. The other question I have has to do with 
governance. Now, the Smithsonian has a specific governance 
structure which it follows in its museums. There is a board of 
regents, the secretary, museum advisory board, museum director. 
Is that something that you are envisioning for this museum?
    Ms. Wages. We envisioned that we would definitely have an 
advisory board and a board, depending on what the ultimate 
structure is. So we have looked at Smithsonian's structure. I 
mean, they largely have that structure because they are a 
quasi-government entity, and we have been looking at being a 
private entity, but if an opportunity opened to become part of 
the Smithsonian family, we would certainly welcome the 
opportunity to discuss it.
    Our largest concern around that are the funds that Congress 
needs to allocate to Smithsonian entities, so if there is a way 
that we could have the best of all worlds, a quasi-Smithsonian 
privately funded, we would, you know, be thrilled to discuss 
that.
    Ms. Lofgren. Well, that could be difficult, but as far as 
we are concerned, nothing is impossible. So I do think, you 
know, it is important that, as with the most of the museums, 
that this be available on a free basis to the public, if at all 
possible. And one of the great things about visitors coming to 
Washington, and you can contrast it to going to other world 
capitals where you have to pay a lot of money, here you can see 
the children coming in, it is available to the American public, 
which is something we want to preserve, and I know you wish to 
as well. So as we move forward, I think we are going to have to 
be creative about how we do a blended approach, and I know that 
your commitment and creativity will be key to that.
    So I don't have further questions except just to say thank 
you for all you have done, but, even more, thank you for what 
you are continuing to do.
    I yield back.
    The Chairman. The chair certainly thanks the gentlelady for 
her questions and comments, and we certainly want to thank you 
as well. And just a couple of not questions really, but follow-
on comments about the two biggest stumbling blocks you have 
here.
    And as Ms. Lofgren was mentioning about the Government 
Printing Office, we actually had a hearing here just last week 
about that and their spot, which is an excellent location, as 
you know, right next to the Senate there. I think they were 
saying they have 75,000 square foot of space almost immediately 
available for lease. I am just saying, picking up on some of 
the areas that are in the immediate vicinity here, that keeping 
an open mind of where, that is something I think this committee 
would be very looking forward to working with you on, 
identifying various locations.
    And then I think also, and certainly in regards to the 
funding, the funding level, and as you mentioned, in a perfect 
world what would be optimal really where you had a sort of 
partnership, a really public-private partnership----
    Ms. Wages. Right.
    The Chairman [continuing]. If you will. I tell you, that 
really is the wave of the future in so many things that 
government does. I also sit on the Transportation and 
Infrastructure Committee, and as we are looking at a 5-year 
reauthorization of how we rebuild this Nation's infrastructure 
with roads and bridges and everything else, you see that there 
are so many areas where government just doesn't have the 
funding for everything. We need to enter into public-private 
agreements for all kinds of different areas. This may be, 
again, women being on the leading edge of all of these things.
    Ms. Wages. Trendsetters.
    The Chairman. We are trendsetters, right?
    So just another area, I think, where it is great you have a 
really open mind on how some of these things could possibly 
happen, because where there is a will, there certainly is a 
way, there is a way forward, and that is really the impetus of 
this hearing. And so I think it has been an excellent hearing. 
We got a lot of ideas out on the table, and I look forward to 
this committee continuing to work on this issue. Thank you so 
very much.
    Ms. Wages. Thank you.
    The Chairman. And without objection, I would say all 
Members will have 5 legislative days to submit to the chair 
additional written questions for the witnesses, which we will 
forward and ask the witnesses to respond to as promptly as they 
can so that their answers can be made part of the record if 
there are any further questions.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]
    [Written questions and answers for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T6692A.016
    
    [GRAPHIC] [TIFF OMITTED] T6692A.017
    
    [GRAPHIC] [TIFF OMITTED] T6692A.018
    
    [GRAPHIC] [TIFF OMITTED] T6692A.019
    
    [GRAPHIC] [TIFF OMITTED] T6692A.020
    
    [GRAPHIC] [TIFF OMITTED] T6692A.021
    
    [GRAPHIC] [TIFF OMITTED] T6692A.022
    

</pre></body></html>
